 Oversight Review            September 21, 2011


  Report on Hotline Allegation Regarding Lack of
Agency Guidance on the Currency of Audit Testing in
        the Defense Contract Audit Agency

             Report No. D-2011-6-011
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at www.dodig.mil/audit/reports or contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax
(703) 604-8982.

Suggestions for Future Reviews
To suggest ideas for or to request future reviews, contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760), or
fax (703) 604-8982. Ideas and requests can also be mailed to:

                        Office of the Assistant Inspector General
                             for Audit Policy and Oversight
                        Department of Defense Inspector General
                          400 Army Navy Drive (Room 833)
                               Arlington, VA 22202-4704




Acronyms
AICPA                         American Institute of Certified Public Accountants
CAM                           Contract Audit Manual
DCAA                          Defense Contract Audit Agency
EVMS                          Earned Value Management System
GAGAS                         Generally Accepted Government Auditing Standards
GAO                           Government Accountability Office
IG                            Inspector General
Report No. D-2011-6-011 (Project No. D2010-DIP0AI-0117.000)                 September 21, 2011

              Results in Brief: Hotline Allegation
              Regarding Lack of Agency Guidance on the
              Currency of Audit Testing in the Defense
              Contract Audit Agency

   What We Did                                         What We Recommend
   We reviewed the DOD Hotline complaint               We recommend the DCAA Director develop
   alleging that the Defense Contract Audit            written policy and guidance to ensure that
   Agency (DCAA) lacks written guidance and            DCAA auditors comply with GAGAS by
   agency-wide policy regarding the need to            obtaining sufficient evidence to provide a
   perform current testing of data.                    reasonable basis for the conclusion that is
                                                       expressed in audits of contractor business
   What We Found                                       and internal control systems. Specifically,
   We substantiated the allegation that DCAA           the agency-wide written policy and guidance
   does not have any written guidance or               should require auditors to perform sufficient
   agency-wide policy regarding the need to            testing of current data and testing of data
   perform current testing of contractor data          generated by the system throughout the
   during audits of contractor business systems.       period under audit. Further, the guidance
   In addition, we found that each regional            should require auditors to perform retesting
   office in DCAA has their own rule of thumb          or expand testing if the data tested is no
   as to what they consider to be current audit        longer current.
   testing and when retesting is required. We
   found that the data tested by the auditor           Management Comments
   from reports dated September 21, 2008, was          and Our Response
   no longer current and did not meet the field        In responding to the June 20, 2011 draft of
   work standard in generally accepted                 this report, the Director, DCAA agreed with
   government auditing standards (GAGAS)               our     findings    and     recommendations.
   which requires auditors to obtain sufficient,       Therefore, no additional comments are
   appropriate evidence. It would be desirable         required. Please see the recommendations
   to have written agency-wide audit policy            table on the following page.
   and guidance from DCAA Headquarters to
   ensure consistency among the regions and
                                                                  United States Department of Defense
   field audit offices, and to ensure that                            Office of Inspector General
   auditors obtain sufficient evidence to                              Report No. D-2011-6-011
                                                                 (Project No. D2010-DIP0AI-0117.000)
   provide a reasonable basis for the conclusion                          September 21, 2011

   that is expressed in the audit report.




                                                   i
Report No. D-2011-6-011 (Project No. D2010-DIP0AI-0117.000)   September 21, 2011

Recommendations Table

             Management                   Recommendations       No Additional
                                          Requiring Comment   Comments Required
Director, Defense Contract Audit Agency                        1.




                                           ii
Table of Contents

Introduction

      Objective                                                     1
      Background                                                    1


Finding. Lack of Agency Guidance on the Currency of Audit Testing

      Allegation                                                    3
      Background                                                    3
      Our Review                                                    4
      Recommendation, Management Comments, and Our Response         7

Appendix

      Scope and Methodology                                         9

Management Comments

      Defense Contract Audit Agency                                 10
Introduction
Objective
We conducted this review to determine whether the complainant’s allegation received by
the DOD Hotline could be substantiated. The complainant alleged that the Defense
Contract Audit Agency does not have any written guidance or agency-wide policy
regarding the need to perform current testing of contractor data.

See Appendix A for details of our scope and methodology.

Background

Defense Contract Audit Agency (DCAA)
In accordance with DOD Directive 5105.36, DCAA performs contract auditing and
provides accounting and financial advisory services in connection with the negotiation,
administration and settlement of contracts and subcontracts. DCAA operates under the
authority, direction, and control of the Under Secretary of Defense (Comptroller).

Organizationally, DCAA includes a Headquarters, Field Detachment, and five regions:
Central, Eastern, Mid-Atlantic, Northeastern, and Western. Each region has several field
audit offices.

Government Accountability Office (GAO)
GAO issued two reports addressing the requirement that auditors perform sufficient
testing to express an opinion on the subject under audit, including one in July 2008 1 and
the other in September 2009. 2 These reports noted that generally accepted government
auditing standards require auditors to perform sufficient testing and obtain sufficient
evidence to express an opinion on the subject matter. The 2009 report found audit quality
problems at DCAA offices nationwide, including insufficient audit testing on its internal
control reviews. The report notes that DCAA’s secondary objective on audits of
contractor systems and controls is to determine the degree of reliance that can be placed
on the contractor’s internal controls as a basis for planning the scope of other related
audits. The report found that 33 of the 37 internal control audits did not include
sufficient testing of internal controls to support auditor conclusions and opinions. DCAA
uses the results of contractor systems and internal control audits to assess risk and plan
the nature, extent, and timing of tests for other contractor audits and other assignments.




1
  Report No. GAO-08-857, “DCAA AUDITS: Allegations That Certain Audits at Three Locations Did Not
Meet Professional Standards Were Substantiated,” July 22, 2008.
2
  Report No. GAO-09-468, “DCAA AUDITS: Widespread Problems with Audit Quality Require
Significant Reform,” September 23, 2009.



                                                1
Generally Accepted Government Auditing Standards
As a Government audit organization, DCAA must comply with applicable generally
accepted government auditing standards (GAGAS) issued by the Comptroller General of
the United States. GAGAS incorporates the standards issued by the American Institute of
Certified Public Accountants. The DCAA Contract Audit Manual (CAM) prescribes
auditing policies and procedures for performing audits in support of the DCAA mission.
The CAM incorporates GAGAS into its guidance.

DOD Instruction 7600.2 dated April 27, 2007, “Audit Policies,” requires that all
independent audit and attestation engagements of DOD organizations, programs,
activities, and functions be conducted in accordance with GAGAS as issued by the
Comptroller General of the United States. GAGAS provides the framework for auditors
to perform high-quality audit work with competence, integrity, objectivity, and
independence. Under GAGAS, auditors must prepare audit documentation in sufficient
detail to provide a clear understanding of the work performed, including the nature,
timing, extent, and results of audit procedures performed; the evidence obtained and its
source; and the conclusions reached. The audit documentation should contain support for
the report’s findings, conclusions, and recommendations.

GAGAS 6.04b requires the auditor to obtain sufficient and appropriate evidence to
provide a reasonable basis for the conclusion that is expressed in the report. The
evidence provided in the report is more helpful if it is current.




                                           2
Finding
Lack of Agency Guidance on the Currency of Audit
Testing
We substantiated the allegation that DCAA does not have any written guidance or
agency-wide policy regarding the need to perform current testing of transactions during
audits of contractor business and internal control systems.

Allegation
The complainant alleged that DCAA lacks any written guidance or agency-wide policy
regarding the “currency” of audit testing which is causing audit reports on contractor
business system reviews to be delayed as a result of retesting.

Background
In addressing the allegation, the auditor described an incident whereby he completed an
audit of the contractor’s earned value management system (EVMS) for compliance with
certain earned value management guidelines. During a review of the draft report in
November 2009, the DCAA Eastern Region determined that the data reviewed by the
auditor was not current and required the auditor to retest the data. The complainant
alleged that the lack of written agency policy or guidance regarding the need to perform
current testing led the Eastern Regional Director to require retesting.

The auditor reviewed and tested the most current Contract Performance Reports dated
September 21, 2008 that were available at the time the audit started in December 2008.
During the course of the audit, all transactions tested by the auditor came from the
September 21, 2008 reports. The auditor completed the audit in August 2009. The
supervisory auditor completed his review in November 2009 and submitted the draft
report for review to the DCAA Eastern Region Technical Programs Division.

On November 9, 2009, the Eastern Regional Technical Programs Specialist telephoned
the supervisory auditor and told him that she would like the auditor to perform “current”
testing on more recent Contract Performance Reports. The auditor stated that he selected
the most current Contract Performance Reports available at the start of the audit. At that
time, no written guidance or policy related to a 6-, 9-, or 12-month testing policy existed.
However, the data tested was no longer current by the time the audit was completed. To
be sufficient and current, evidence supporting the audit opinion should be reasonably
current as of the date of the audit report.

The Eastern Regional Technical Programs Specialist was concerned with the “age” of the
Contract Performance Reports and related transaction testing performed by the auditor.
The specialist noted in an email dated November 13, 2009 that the reports tested were
dated September 21, 2008. The email stated that it is DCAA’s position that testing in a
system review be as current as possible. However, there is no written agency-wide policy
regarding DCAA’s position. In addition, the specialist stated that it is the Eastern


                                             3
Regional Director’s position based upon discussions held in DCAA Executive Steering
Committee meetings that the data tested should be within a six- to nine-month period
prior to the issuance of the audit report.

On November 16, 2009, a teleconference was held between the Regional Special
Programs and Resident Office. It was noted that there is no written policy that an audit
report must be issued six to nine months after the date of the data being audited in a
system audit. The Eastern Regional Special Programs Manager requested that the auditor
update the testing on the system findings to current Contract Performance Reports.

On November 17, 2009, a Program Manager from Headquarters, now retired, emailed the
Eastern Regional Technical Programs Specialist and said that the testing should be
updated if it is more than 12 months old.

On November 18, 2009, the Eastern Regional Director decided that the testing should be
updated for transactions that were tested and are older than nine months. As a result of
the lack of written agency policy or guidance, the Eastern Regional Director directed the
auditor to perform additional testing and determine if the original deficiencies were still
at issue. Subsequently the Regional Audit Manager advised the Resident Auditor that the
opinion stated in the audit report cannot be based on testing performed on contractor
Contract Performance Report data from September 2008.

Our Review
We obtained and reviewed the statements made by the auditor, Resident Office and
Regional management, Eastern Regional Technical Programs Specialist, and the Director
of the Eastern Region. Additionally we researched applicable regulations, DCAA
Contract Audit Manual (CAM), and DCAA agency policies. The complainant performed
all of his testing from the Contract Performance Reports dated September 21, 2008. The
data tested was one year old by the time the complainant completed the audit. The
auditor did not obtain sufficient evidence to provide a reasonable basis for the conclusion
that is expressed in the report. The evidence was not sufficient because the evidence was
not current. Therefore, the Eastern Region required the auditor to retest using current
data.

We substantiated the allegation that DCAA does not have written guidance or agency-
wide policy related to the “current” testing of data. We agree that the lack of written
agency-wide policy or guidance regarding “current” testing led the Eastern Regional
Director to make a decision that the auditor must perform additional testing. All resident
audit office and regional office managers we interviewed stated that DCAA does not
have any guidance or agency-wide policy regarding the need to perform “current” testing
during audits of contractor’s internal control and business systems. The Chief, Technical
Programs Division from each DCAA region all agreed that guidance and agency-wide
policy from DCAA Headquarters is needed to regulate testing of current data to assist
auditors in obtaining sufficient appropriate evidence to support conclusions in audits of
contractor internal controls and business systems.



                                             4
Regional Offices
We found that the lack of written guidance or agency-wide policy resulted in inconsistent
practices among the DCAA regional offices. We contacted the Chief, Technical
Programs Division for each region. Each Chief stated that the data tested should be
current. However, the regions are using different criteria to determine when retesting
would be required before providing an opinion on the contractor’s business or internal
control systems. We asked the Chief, Technical Programs Division from each region the
question: “When would retesting be required because the data tested is too old to give an
audit opinion on the business or internal control system?” We received inconsistent
answers as noted in Table 1 (below).

                    Table 1. Region Responses on Data Retesting
               Region         Retesting would be required if the data tested
                                   were older than the following period
         Eastern                 Older than 9 months
         Northeastern            Older than 12 months
         Central                 Older than 6 months
         Western                 Older than 12 months
         Mid-Atlantic            Older than 9 months
         Field Detachment        Older than 9 months

The lack of written guidance and agency-wide policy from DCAA Headquarters has
created inconsistent treatment among the five regions and the Field Detachment. All
regions agree that an opinion must be provided based on data that is relatively current.
Written guidance and policy from DCAA Headquarters is expected; but, no written
policy has been provided. Written guidance and agency-wide policy would advise
auditors of the requirement to perform “current” testing to obtain sufficient evidence to
provide a reasonable basis for the conclusion that is expressed in the report.

Headquarters
The Chief, Auditing Standards Division, DCAA Headquarters acknowledged that DCAA
does not have a written policy stating a specific time frame beyond which testing in
audits of contractor business systems would be considered outdated. Based on current
DCAA policy, audit reports on contractor systems are relied on by DCAA as a basis for
assessing control risk in related audits for a period of two to four years assuming no
changes to the system. DCAA Headquarters believes that the appropriate exercise of
professional judgment would generally dictate that to be sufficient and appropriate, the
evidence supporting the audit opinion should be reasonably current as of the date of the
audit report. As a general rule, when DCAA Headquarters receives questions regarding
this issue, they advise regions and field audit offices that testing should generally be no
more than 9 to 12 months old when the audit report is issued. However, DCAA
Headquarters has not provided any written guidance or policy on the subject.




                                             5
DCAA Memorandum for Regional Directors (09-PAS-020(NR)), dated October 9, 2009,
stated that new guidance is expected to be issued in the second quarter of FY 2010 for
audits of contractors’ billing systems and audits of contractors’ control environment and
overall accounting systems. We are not aware that DCAA Headquarters issued any new
guidance as mentioned in this memorandum.

Applicable Criteria
In performing its audits, DCAA states that it follows generally accepted government
auditing standards (GAGAS). GAGAS 1.23a covering examination-level engagements
require that auditors obtain sufficient, appropriate evidence to provide a reasonable basis
to express an opinion on whether the subject matter is based on (or in conformity with)
the criteria in all material respects. Also, GAGAS 6.04b requires the auditor to obtain
sufficient evidence to provide a reasonable basis for the conclusion that is expressed in
the report. The evidence provided in the report is more helpful if it is current.

   •   The Government Accountability Office (GAO) Report GAO-09-468 found that
       33 of 37 internal control audits it reviewed did not include sufficient testing of
       internal controls to support auditor conclusions and opinions. The GAO found
       that an auditor tested only two, three, or sometimes five transactions to support
       audit conclusions. In another instance, an auditor tested four vouchers that were
       all processed on the same day out of the 8-month period covered by the audit.

The GAO report states, for internal control audits which are relied on for 2 to 4 years and
sometimes longer, the auditors would be expected to test a representative selection of
transactions across the year and not transactions for just one day, one month, or a couple
of months. An auditor should use a population covering a 12-month period if the
assignment is designed to cover a 1-year period.

Further, the GAO report found that 6 of the 37 audit reports were not issued at the time
the work was completed. Because testing was not updated or was not sufficiently
updated, the reported audit opinions which related to controls at the time the reports were
issued, were not adequately supported and may have been inaccurate. GAO
recommended that DCAA revise DCAA audit policy and update DCAA’s CAM as
appropriate, to provide appropriate guidance on what constitutes sufficient testing to
comply with GAGAS.

The complainant, in providing an opinion on the contractor’s EVMS, reviewed only those
Contract Performance Reports dated September 21, 2008. The complainant had 17
findings and prepared a 90-page audit report. He reviewed 13 earned value management
guidelines on two different earned value management systems at Northrop Grumman
Naval Shipyard. One system is on the nuclear aircraft carrier and the other system is on
the nuclear submarine. The complainant audited the Contract Performance Reports
issued on both systems. The draft report was sent to the Eastern Region for review in
November 2009. As a result, the Eastern Regional Director required the auditor to update
the testing to review current contract performance reports. We do not disagree with the
Regional Director’s decision. The auditor should have tested a representative selection of


                                             6
transactions across the year and not just transactions from reports issued on just one day.
We observed that for very large projects such as this, the data tested will never be current
unless such audits are scoped and resourced adequately. This particular audit only had
two auditors assigned. Cost Performance Reports are submitted monthly for the nuclear
aircraft carrier and are submitted quarterly for the nuclear submarine. The data tested by
the auditor was not current and did not consist of sufficient appropriate evidence to
provide a reasonable basis for the audit conclusion.

We substantiated the complainant’s allegation that there is no written agency-wide policy
or guidance regarding the need to perform testing of “current” data to support an opinion
of the contractor’s system. We recommend that DCAA Headquarters develop written
agency-wide policy and guidance on the need to test current data to support opinions on
the contractor’s internal controls and business systems. The policy and guidance should
include criteria when the auditor should expand testing and perform additional work.


Recommendation, Management Comments, and Our
Response
1. We recommend that the Director, Defense Contract Audit Agency,

       Develop written policy and guidance to ensure DCAA auditors comply with
       generally accepted government auditing standards by obtaining sufficient
       evidence to provide a reasonable basis for the conclusion that is expressed in
       audits of contractor’s internal controls and business systems. Specifically,
       the written policy and guidance should include the requirement for auditors
       to perform:

                   (a) Sufficient testing of current data.

                   (b) Testing of data generated by the system throughout the period
                   under audit.

                   (c) Retesting or expand testing if the data tested is no longer
                   current.

Management Comments
The Director concurred. By November 2011, DCAA will issue guidance, which will
include the requirement for auditors to (i) perform sufficient testing of data that is
relevant to the audit objectives, including the period or point in time covered by the
report, (ii) perform testing of data generated by the system throughout the period under
audit, and (iii) issue timely audit reports. For audits of contractor business systems,
DCAA will perform compliance attestation engagements and report on the contractor’s
compliance during a period of time or as of a point in time, consistent with the applicable
attestation reporting standards (AT 601.55b) in AICPA’s Statements on Standards for
Attestation Engagements. Circumstances where auditors would need to expand testing to


                                             7
obtain sufficient evidence for the conclusions expressed in the report should be limited
since the transactions being evaluated in the audit will coincide with the defined period
covered by the audit. DCAA agrees with the guidance in GAGAS A8.02g, that the
evidence provided in the report is more helpful if it is current and, therefore, timely
issuance of the report is an important reporting goal for auditors.

Our Response
The comments are responsive and no further comments are required. We will monitor
the effectiveness of the new guidance and the timeliness of audit reports. The timely
issuance of audit reports on contractor business systems is essential to the success of the
new agency policy. Audits of contractor business systems should be current and audit
reports on contractor business systems should be issued timely to protect the taxpayer’s
interests.




                                             8
Appendix. Scope and Methodology
The review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency “Quality Standards for Inspection and Evaluation.” To
determine the validity of the Hotline complaint addressed in this report, we:

    •   interviewed the complainant, Eastern Region’s supervisor, resident auditor,
        regional audit manager, and regional technical programs specialist, and obtained
        additional documents related to the complaint;

    •   obtained inquiry from Headquarters and Regional offices, DCAA;

    •   reviewed applicable DCAA policies and procedures, such as the Defense
        Contract Audit Manual, and audit programs; and

    •   reviewed applicable GAGAS.

We performed this review from April 2010 through May 2011.


Use of Computer-Processed Data
We did not rely on any computer-processed data as part of our review.


Prior Coverage
During the last 5 years, the GAO and the Department of Defense Inspector General
(DOD IG) have issued 3 reports related to the requirement that DCAA auditors perform
sufficient testing to express an opinion on the subject under audit. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DOD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
Report No. GAO-09-468, “DCAA Audits: Widespread Problems with Audit Quality
Require Significant Reform,” September 23, 2009

Report No. GAO-08-857, “DCAA Audits: Allegations That Certain Audits at Three
Locations Did Not Meet Professional Standards Were Substantiated,” July 22, 2008


DOD IG
Report No. D-2009-6-009, “Defense Contract Audit Agency Audit Work Deficiencies
and Abusive Work Environment Identified by the Government Accountability Office,”
August 31, 2009




                                            9
Defense Contract Audit Agency Comments




                    10
11
12
